<html>
<title> - RAPE AS A WEAPON OF WAR: ACCOUNTABILITY FOR SEXUAL VIOLENCE IN CONFLICT</title>
<body><pre>[Senate Hearing 110-581]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-581
 
RAPE AS A WEAPON OF WAR: ACCOUNTABILITY FOR SEXUAL VIOLENCE IN CONFLICT

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON HUMAN RIGHTS AND THE LAW

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 1, 2008

                               __________

                          Serial No. J-110-82

                               __________

         Printed for the use of the Committee on the Judiciary



                     U.S. GOVERNMENT PRINTING OFFICE
45-210 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
           Stephanie A. Middleton, Republican Staff Director
              Nicholas A. Rossi, Republican Chief Counsel
                                 ------                                

                Subcommittee on Human Rights and the Law

                 RICHARD J. DURBIN, Illinois, Chairman
EDWARD M. KENNEDY, Massachusetts     TOM COBURN, Oklahoma
JOSEPH R. BIDEN, Jr., Delaware       JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       LINDSEY O. GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     SAM BROWNBACK, Kansas
                      Joseph Zogby, Chief Counsel
                 Brooke Bacak, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coburn, Hon. Tom, a U.S. Senator from the State of Oklahoma......     5
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................     1
    prepared statement...........................................    64
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................    68

                               WITNESSES

Askin, Kelly Dawn, Senior Legal Officer, Open Society Justice 
  Initiative, New York, New York.................................    10
Jackson, Lisa F., Documentary Maker, and Director of ``The 
  Greatest Silence: Rape in the Congo,'' New York, New York......     6
Mukwege, Denis, M.D., Director, Panzi General Referral Hospital, 
  Bukavu, South Kivu, Democratic Republic of Congo, accompanied 
  by Jean Moorhead, Interpreter..................................    13
Wachter, Karin, Gender-Based Violence Technical Advisor, 
  International Rescue Committee, New York, New York.............     8

                       SUBMISSIONS FOR THE RECORD

Amnesty International USA, New York, New York, statement.........    23
Askin, Kelly Dawn, Senior Legal Officer, Open Society Justice 
  Initiative, New York, New York, statement......................    43
CARE, Atlanta, Georgia, statement................................    57
Christian Peacemaker Teams (CPT), Wendy Lehman, Chicago, 
  Illinois, statement............................................    62
Ensler, Eve, Founder, Artistic Director, VDay, New York, New 
  York, letter...................................................    67
Fox, Ritu Sharma, President and Co-Founder, Women Thrive 
  Worldwide, Washington, D.C., statement.........................    69
Human Rights Watch, New York, New York, statement................    76
International Center for Transitional Justice, New York, New 
  York, statement................................................    79
Jackson, Lisa F., Documentary Maker, and Director of ``The 
  Greatest Silence: Rape in the Congo,'' New York, New York, 
  statement......................................................    92
Mukwege, Denis, M.D., Director, Panzi General Referral Hospital, 
  Bukavu, South Kivu, Democratic Republic of Congo, accompanied 
  by Jean Moorhead, Interpreter, statement.......................    98
Physicians for Human Rights, Frank Donaghue, Chief Executive 
  Officer, Cambridge, Massachusetts, statement...................   110
Rothenberg, Daniel, Managing Director of International Projects, 
  and Elizabeth Drew, Project Coordinator, International Human 
  Rights Law Institute, DePaul University College of Law, 
  Chicago, Illinois, statement...................................   123
Thomas-Jensen, Colin, Policy Advisor, Enough Project, Washington, 
  D.C., statement................................................   143
Wachter, Karin, Gender-Based Violence Technical Advisor, 
  International Rescue Committee, New York, New York, statement..   148
Women's Commission for Refugee Women and Children, New York, New 
  York, statement................................................   154


RAPE AS A WEAPON OF WAR: ACCOUNTABILITY FOR SEXUAL VIOLENCE IN CONFLICT

                              ----------                              


                         TUESDAY, APRIL 1, 2008

                                       U.S. Senate,
                  Subcommittee on Human Rights and the Law,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Richard J. 
Durbin, Chairman of the Subcommittee, presiding.
    Present: Senators Durbin and Coburn.

  OPENING STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR 
                   FROM THE STATE OF ILLINOIS

    Chairman Durbin. This hearing of the Judiciary Committee's 
Subcommittee on Human Rights and the Law will come to order.
    The subject of this hearing is ``Rape as a Weapon of War: 
Accountability for Sexual Violence in Conflict.'' This is the 
first-ever congressional hearing on sexual violence in 
conflict. It is a sad testament to our failure to take action 
to stop this horrific human rights abuse.
    We will have a few opening remarks, and I will recognize 
any Senators who are joining us, including my Ranking Member, 
Senator Coburn, who will be here later in the session, and then 
turn to our witnesses. Let me make an opening statement.
    Today we will discuss the systematic and deliberate use of 
rape as a weapon of war to humiliate, expel, and destroy 
communities.
    Tragically, mass rape has been a feature common to recent 
conflicts in Bosnia, Darfur, the Democratic Republic of Congo, 
East Timor, Rwanda, and Sierra Leone. It is not new or unique 
to these conflicts.
    In World War II, the Japanese Imperial Army raped an 
estimated 20,000 women, ranging from infants to the elderly, in 
the city of Nanking in China in a 1-month period.
    Rapes in Nanking, and in too many conflicts since then, 
have frequently been carried out in public and in front of 
other family members. Men are often forced to rape their 
mothers, sisters, or daughters. Women are mutilated and often 
killed after the rape.
    Children are particularly at risk of being subjected to 
wartime sexual violence, and in some countries, girls and boys 
are abducted and repeatedly raped.
    Women and girls who survive sexual violence are frequently 
stigmatized and later rejected by their families and 
communities.
    We have preceded most of these hearings--in fact, all of 
them--by showing a brief video that we hope will put the 
hearing in context. This video features clips from the 
documentary on rape in the Democratic Republic of Congo by Lisa 
Jackson, one of our witnesses today, who I appreciate joining 
us. I would like to ask those who are present to view this 
video as an introduction to this hearing.
    [Videotape played as follows:]
    ``Up to 500,000 women were raped in the Rwandan genocide.
    ``As many as 64,000 were raped in the Sierra Leone civil 
war.
    ``Over 40,000 were raped in the Bosnia conflict.
    ``And today, as you read this, women are being raped in 
refugee camps in Darfur and Chad.
    ``These acts go beyond opportunistic rape and pillage in 
the chaos of war.
    ``Rape is used as a systematic and deliberate weapon of war 
to humiliate, demoralize, expel, and destroy civilian 
populations.
    ``Women and girls are tortured and mutilated in front of 
their families.
    ``Rape has been used to change the ethnic makeup of a group 
by forcibly impregnating women.
    ``Today, the use of rape as a weapon of war is at its worst 
in the Democratic Republic of Congo.
    ``They have taken our belongings. We were raped by 20 men 
at the same time. Our bodies are suffering. They have taken 
their guns and put them inside of us. They kill our children 
and then tell us to eat those children. If a woman is pregnant, 
they make your children stand on your belly so that you will 
abort. Then they take the blood from your womb and put it in a 
bowl and tell you to drink it. When we were living in the 
forest, it wasn't just one man. Every soldier can have sex with 
you. We got pregnant there. We gave birth in the forest, alone, 
like animals, without food or medicine. But by the mercy of God 
we had the courage to escape to the village. We are all alone. 
Our husbands have been killed, or they have denied us. Even our 
families have denied us. We don't know where to go, what to do.
    ``Mass rape in war has also taken place in Burundi, Burma, 
East Timor, Kosovo, and Liberia.
    ``Laws prohibiting wartime rape have been disregarded for 
centuries.
    ``After World War II, the Nuremberg and Tokyo Tribunals 
largely ignored wartime sexual violence.
    ``That is beginning to change.
    ``That Yugoslav and Rwanda Tribunals have prosecuted sexual 
violence as genocide, torture, war crimes, persecution, and 
crimes against humanity.
    ``We must do more to hold accountable those who use rape as 
a weapon of war.
    ``To diminish the cases of rape, I think the first thing is 
we have to fight the problem of impunity. When the assailant is 
prosecuted and condemned, others will be afraid and won't 
commit the same type of infraction.
    ``Video courtesy of Lisa F. Jackson, from the documentary 
``The Greatest Silence: Rape in the Congo.''
    ``Images used in this production are not necessarily of 
survivors or perpetrators of sexual violence.''
    Chairman Durbin. Lisa Jackson, thank you so much for 
contributing a portion of that video. It is so touching. It 
reminds me of a visit that Senator Brownback and I made to Goma 
in the Democratic Republic of Congo and visiting DOCS Hospital, 
and Goma is one of those poor, poor places on Earth that is 
wracked by poverty and disease and war and volcanoes. And at 
this hospital, DOCS Hospital, the women were sitting in the 
dusty road outside the hospital, queued up, waiting sometimes 
for months for an opportunity for a surgery for obstetric 
fistula, which in many instances was the result of brutal rape 
and assault. Because of the problems, physical problems they 
had, they had been rejected by everyone, and they had nowhere 
to go. And they just literally sat in the dusty road hoping for 
the surgery, sometimes multiple surgeries. They still thought 
that was their only chance to survive. But thank you. The 
images that you have given us and that I know you will be 
talking about here will make a big difference.
    It is appalling that today women and girls are being raped 
in conflict situations around the world. It reflects our 
collective failure to stop the use of women's bodies as a 
battleground.
    The scale of this problem is daunting. A recent report 
documented conflict-related sexual violence in 51 countries in 
Africa, the Americas, Asia, Europe, and the Middle East in the 
last two decades.
    Wartime rape is not inevitable. The widespread prevalence 
of sexual violence in recent conflicts results in part from the 
lack of accountability for those who commit the rape.
    Government and rebel forces violate human rights and these 
poor people with impunity, perpetuating the stigma that 
surrounds these crimes.
    Historically, wartime sexual violence was tolerated as 
unfortunate but unavoidable.
    Throughout the 20th century, rape and other forms of sexual 
violence were included in increasingly specific terms in 
international agreements on the conduct of war. Prejudice and 
misconceptions meant these crimes were initially framed as 
private acts violating family dignity and honor, rather than 
the violent public crimes that they are.
    As noted in the video we just watched, the Yugoslav and 
Rwanda Tribunals made significant progress by prosecuting 
perpetrators of sexual violence. That we have moved beyond the 
not-so-distant debate about whether sexual violence in conflict 
is a war crime is an important forward step.
    Despite these developments, wartime sexual violence and the 
experience of those women and men who survive it remain 
invisible far too often.
    During today's hearing, we are going to discuss the legal 
options for holding accountable those who use rape as a 
military tactic. While a growing number of perpetrators of 
wartime sexual violence have been prosecuted, a much larger 
number have escaped accountability. The average wartime rapist 
runs very little risk of being prosecuted.
    The United States and other countries must play a greater 
role. I am sorry to say that if a foreign warlord who engaged 
in mass rape came to the United States of America today, he 
would probably be beyond the reach of our laws. It is not a 
crime under U.S. law for a non-U.S. national to perpetrate 
sexual violence in conflict against non-U.S. nationals, so the 
U.S. Government is unable to prosecute such perpetrators of 
wartime rape who end up in our country.
    There is also no U.S. law prohibiting crimes against 
humanity, one of the most serious human rights violations, 
which includes mass rape and other forms of sexual violence.
    And we must make it clear that genocide and torture, two of 
the most serious human rights violations that are a crime under 
U.S. law, can include wartime sexual violence.
    These loopholes have real consequences. For example, take 
the case of Emmanuel ``Chuckie'' Taylor, son of the warlord 
Charles Taylor, whom the Justice Department is prosecuting 
under the torture statute. As the head of the notorious Anti-
Terrorist Unit of the Liberian Government, Chuckie Taylor was 
implicated in wartime rapes committed by the ATU, but it is 
unlikely that he could be prosecuted for these crimes against 
humanity in the United States.
    Another example is Marko Boskic, who found safe haven in 
our country after reportedly participating in the execution of 
men and boys in the Srebrenica massacre. Under current law, the 
United States was unable to prosecute Boskic for his crimes 
against humanity and charged him only with visa fraud.
    In addition to punishing individual perpetrators, 
governments that tolerate and fail to take steps to stop 
wartime sexual violence must be held accountable for their 
actions. At the very least, we should ensure that U.S. tax 
dollars do not fund state armies that fail to prevent their 
forces from engaging in mass rape.
    We must work to end the use of rape as a weapon of war, but 
as long as the practice persists, we should support programs 
that provide protection, medical care, psychological services 
and legal remedies to survivors of wartime sexual violence.
    As I have said so many times and I will repeat again today, 
this Subcommittee will focus on legislation, not lamentation. 
We must end impunity for wartime sexual violence. I look 
forward to working with the members of this Subcommittee to 
ensure that our laws hold accountable those who use rape as a 
weapon of war.
    Before I turn to him, I just want to thank my colleague 
from Oklahoma. You could not find two more unlikely Senators 
sitting at the same table, as we have so many times, and we 
have found common ground so many times. Senator Coburn and I 
may disagree on so many things, but I just want to thank him 
personally for working extra hard to find that common ground so 
that in the past, this small, little, new Subcommittee, has 
generated what I think will turn out to be historic 
legislation. I want to recognize Senator Coburn now for any 
opening remarks.

STATEMENT OF HON. TOM COBURN, A U.S. SENATOR FROM THE STATE OF 
                            OKLAHOMA

    Senator Coburn. Senator Durbin, thank you so much for your 
kind words, and thank all of you for the compelling stories and 
the information you bring to us. I am committed, as I know you 
are, to us forging a solution that will become law so that we 
can, in fact, prosecute those that are in our country for these 
terrible acts.
    I also want to thank you and your staff. The diligence and 
the awareness of the problems that are out there that have not 
been addressed by the U.S. Congress or the U.S. Senate means 
that they are doing great work. And I know that your staff is a 
reflection of your leadership, and I appreciate that.
    We do not always talk so kindly to one another when we are 
on the Senate floor, but there are lots of things that we come 
together on, and we have been able to pass several bills so far 
that are going to make a big difference in terms of how we 
handle in this country those who commit such atrocities.
    So I look forward to our witnesses, and I look forward to 
the action that is going to follow that in terms of legislation 
that I believe will be accomplished fairly quickly and at a 
time when no longer people can come here under safe haven for 
deeds that they have committed outside of this country.
    Thank you.
    Chairman Durbin. Thank you, Senator Coburn.
    Could the witnesses please rise for the oath? Would you 
raise your right hand? Do you affirm the testimony you are 
about to give before the Committee will be the truth, the whole 
truth, and nothing but the truth, so help you God?
    Ms. Jackson. I do.
    Ms. Wachter. I do.
    Ms. Askin. I do.
    Dr. Mukwege. I do.
    Chairman Durbin. Thank you. Let the record reflect that the 
witnesses all answered in the affirmative.
    Our first witness is Lisa Jackson, producer and director of 
``The Greatest Silence: Rape in the Congo,'' a documentary on 
the systematic use of rape as a weapon of war in the Democratic 
Republic of Congo. ``The Greatest Silence,'' which will premier 
on HBO next week, won a special jury prize at the 2008 Sundance 
Film Festival. Ms. Jackson has been involved in documentary 
film making for over 30 years and has won a number of awards, 
including two Emmys.
    I happen to serve in the Senate with a colleague from 
Illinois who has won two Grammys. I am still trying to win my 
first award here. I do not know that I will ever do that.
    [Laughter.]
    Chairman Durbin. Ms. Jackson attended Sarah Lawrence 
College and studied film making at MIT. I know this is a deeply 
personal issue for you. I thank you for the courage it took to 
make this film and for joining us today. We look forward to 
your testimony, and I ask each of the witnesses if they could 
try to restrict their comments to 5 minutes. Your entire 
statement will be made part of the record. Then Senator Coburn 
and I will have a chance to ask questions.
    Ms. Jackson?

 STATEMENT OF LISA F. JACKSON, DOCUMENTARY MAKER, AND DIRECTOR 
 OF ``THE GREATEST SILENCE: RAPE IN THE CONGO,'' NEW YORK, NEW 
                              YORK

    Ms. Jackson. Thank you. Chairman Durbin, Ranking Member 
Coburn, and members of the Subcommittee, I am honored to be 
asked to come before you to describe from my own perspective 
some of what I witnessed while shooting a documentary film in 
the Democratic Republic of Congo in 2006 and 2007. During that 
time I interviewed many women and girls who had survived sexual 
violence. I also talked with peacekeepers, doctors, activists, 
and, most chillingly of all, with self-confessed rapists, 
uniformed members of the Congolese army who boasted to my 
camera about the dozens of women they had raped--women like the 
one that you just heard in the video clip, whose story is no 
exaggeration. I heard its variation many times: the 
cannibalism, the egregious acts of brutal violence, the 
unspeakable degradations, the resulting abandonment, shame, and 
total despair.
    What has been happening to women in the DRC in the last 10 
years is beyond the pale of any historical precedent. They are 
being attacked by armed militias from Uganda and Burundi, by 
Hutu genocidaires who fled from justice in Rwanda, by warlords 
and their thugs, and by members of the very army and police 
forces who are supposed to protect them. Even United Nations 
peacekeepers have committed rape and sexual exploitation. 
Congo's is a war where women's bodies have literally become the 
battleground.
    This is a war being fought over riches, not ideologies, and 
militia are devastating the civilian population in order to 
loot the country's resources, especially the tin, cobalt, and 
coltan, that we all require for our consumer electronic 
devices. Perhaps another hearing might explore the causes and 
ruinous consequences of this illegal plundering, but everyone 
in this room should consider the possibility that there is the 
blood of Congolese women on their laptop computers and on their 
cell phones.
    But over the course of this conflict, hundreds of thousands 
of women and girls have been intentionally and systematically 
targeted, gang-raped, mutilated, forcibly abducted, and used as 
sex slaves. It is sexual terrorism, pure and simple.
    I met raped women of all ages, who at times would line up 
and wait for hours to talk with someone who would listen 
without judgment, hoping I would relay their stories to a world 
that seemed indifferent to their horrific plight.
    Marie Jeanne is a 34-year-old mother of eight, who was 
raped by five soldiers when she was 6 months pregnant. She has 
been abandoned by her husband who tells their children that she 
wanted to be raped.
    Safi was raped at age 11 while soldiers were looting her 
home. Her huge brown eyes still have a slightly stunned look.
    Maria was 70 years old when she was raped by three 
soldiers. When she told them, ``I am an old woman,'' they said 
to her, ``You're not too old for us.''
    I thought about these women when I interviewed soldiers, 
members of the Congolese army, who talked brazenly to me about 
the rapes they had committed. They were practically swaggering, 
describing their reasons and methods of rape without a hint of 
remorse, because they knew that in Congo's culture of impunity 
they would face no reprisals for their crimes. They seemed to 
consider rape their right.
    I asked the soldiers how many women they had raped. Five, 
11, 18, they replied. One man had lost track. ``It is hard to 
keep record of the number of women I have raped,'' he said. 
``For an approximate number, I would say 25.''
    In my 30 years of years of film making, interviewing these 
soldiers was the single, most devastating moment that I had 
ever experienced. I had just recorded men confessing to 
unspeakable crimes, yet when the interview was over, they just 
melted back into the forest. And I thought to myself, ``Who 
will be their next victims? ''
    Yes, the Congolese Government passed a sweeping law last 
year regarding sexual violence, a law that, for instance, 
finally makes rape with guns and sticks a crime. But I heard 
over and over again stories about the futility of enforcement, 
about rapists who would pay a bribe of $3 or $4 and walk free, 
about a police sex crimes unit with literally a staff of one, 
and about women who face brutal reprisals if they dare denounce 
their attackers. They are left to bear the pain alone, without 
the solace of peace or the possibility of justice.
    The international community cannot continue to turn a blind 
eye to what is happening in the Congo because an elected 
government is now in place. Future U.S. to Kabila's government 
should be contingent on Congo's ending the culture of impunity, 
ensuring assistance to victims, establishing security in all 
regions so that the women of Congo can live their lives with 
the dignity and safety entitled to every human being. We must 
all use our leverage to end this violence for the sake of women 
and girls, for the sake of the Congo, and for the sake of the 
future of Africa.
    I will leave you all with the words of Maria, the 70-year-
old rape survivor from Bunyakiri, who said to me: ``Our country 
will be destroyed completely if this keeps happening. Women are 
suffering. We have forgotten what happiness is.''
    Thank you.
    [The prepared statement of Ms. Jackson appears as a 
submission for the record.]
    Chairman Durbin. Thank you very much, Ms. Jackson.
    Karin Wachter is our second witness. She is the Acting 
Gender-Based Violence Senior Technical Advisor at the 
International Rescue Committee. That is a long title. In 2002, 
she launched IRC's Gender-Based Violence Program in the 
Democratic Republic of Congo, which has gone on to provide 
services to 40,000 survivors of sexual violence through a 
network of local partners. Now based in New York City, Ms. 
Wachter plays a key role in designing IRC's response to sexual 
violence in emergencies and provides technical guidance for 
programs throughout Africa. She holds a master's degree in 
international education from the University of Massachusetts 
and a bachelor of arts degree in social science and drama from 
the University of Michigan.
    Thank you for being here today. Please proceed.

  STATEMENT OF KARIN WACHTER, GENDER-BASED VIOLENCE TECHNICAL 
  ADVISOR, INTERNATIONAL RESCUE COMMITTEE, NEW YORK, NEW YORK

    Ms. Wachter. Let me begin by saying that I feel extremely 
privileged for having been invited to speak here today. Above 
all, I wish I could share with you the concerns and hopes of 
the tens of thousands of women and girls who come forward for 
help, having been assaulted, tortured, humiliated, and disabled 
simply for having been born female and being caught in the 
cross-fire of war.
    In the past 6 years, I have seen firsthand the sexual and 
physical violence perpetrated against women and girls in ten 
different conflict-affected African countries. It is not an 
exaggeration to name conflict-related sexual violence a global 
human rights, public health, and security crisis. The use of 
sexual violence is both a tactic of warfare and an 
opportunistic consequence of conflict and displacement. They 
often go hand in hand.
    The systematic use of rape in war has many purposes, 
including ethnic cleansing, elimination, and the domination of 
target populations. Up to half a million women were raped 
during the Rwandan genocide. Tens of thousands of Bosnian women 
and girls were subjected to egregious acts of violence. 
Hundreds of thousands of women and girls in Eastern Congo have 
been brutally raped, a threat and reality that continues today.
    This form of warfare is tragically effective. It destroys 
the fabric of a community in a way that few weapons can. It 
produces unwanted children, it spreads disease, and it leaves 
an imprint on the individual and collective psyche that is 
difficult to erase.
    This strategic use of sexual violence is usually 
accompanied with a sharp increase in opportunistic rape and 
other forms of sexual violence, carried out not only by the 
armed groups in an environment of impunity, but within the 
family and community as well. The physical health and 
psychological and social consequences of this kind of violence 
are very real, and they often go untreated. You can only 
imagine what it does to a family to watch your daughter gang-
raped or to be forced to commit the atrocity yourself.
    Given the significance burden and responsibility that women 
and girls carry in providing for their families, trampling upon 
their physical health and ability to function within society 
dramatically unhinges the family unit. In most contexts, women 
and girls are the ones punished for having been raped. Often 
abandoned, the survivors are left further exposed to sexual and 
physical exploitation.
    The effects of this kind of widespread sexualized terror on 
the family and community have long-term implications for a 
nation's capacity to heal, stabilize, and rebuild after war. 
And unfortunately, for women and girls, the threat of violence 
remains long after the fighting ends.
    In Sierra Leone, in 2007 alone, 1,176 girls and women 
sought care for sexual and physical violence at IRC centers: 65 
percent of those cases were under the age of 15; 64 percent of 
those cases were rape or gang-rape; the youngest client was 2 
months old.
    A recent study conducted in Liberia indicated that violence 
against women and girls is dramatically widespread. In the 
study population, 55 percent of the women surveyed had 
experienced violence in the home; 13 percent of minors in one 
county and 11 percent of minors in another county had been 
sexually abused in the past 18 months.
    Please let me assure you that at the bottom of all of this 
suffering is, in fact, a message of hope.
    The international community now maintains that sexual 
violence is to be assumed in all humanitarian emergencies, 
including natural disasters. It is becoming understood that the 
burden of proof for sexual violence in humanitarian emergencies 
should be to provide evidence that rape is, in fact, not 
rampant. The humanitarian community has made great strides in 
developing industry standards for establishing the response to 
conflict-related sexual violence in humanitarian emergencies.
    At this point, we know what it takes to launch an effective 
response, and we know how to monitor the quality of that 
response. What is harder is securing the necessary resources 
and deploying the required technical expertise.
    In addition, we have made good progress in gaining the 
commitment and buy-in from key American donors to allocate much 
needed resources to this crucial issue. We still have a long 
way to go, but what this means is that we are now able to hit 
the ground a little faster to set up life-saving services at 
the onset of an emergency.
    We are deeply encouraged by the bipartisan legislation 
recently introduced by Senator Biden and Senator Lugar, the 
International Violence Against Women Act--(IVAWA, S. 2279)--
which would make violence against women a key priority in U.S. 
foreign assistance programs.
    In recognition of how violence against women is exacerbated 
by conflict and continues long thereafter, the IVAWA bill is 
designed to address the issues in war-torn, post-conflict, and 
development settings. Those of us working day in and day out on 
this issue eagerly wait for this piece of legislation to be 
passed.
    Sexual violence and its extreme consequences do not need to 
be an inevitable component of conflict and displacement.
    I thank Chairman Durbin, Ranking Member Coburn, and the 
members of the Subcommittee for your time and interest in this 
worthwhile cause. Thank you very much.
    [The prepared statement of Ms. Wachter appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Ms. Wachter.
    Dr. Kelly Dawn Askin is a senior legal officer at the Open 
Society Justice Initiative, and served as legal advisor to the 
judges of the International Criminal Tribunal for the Former 
Yugoslavia and for Rwanda. She also advised or trained 
prosecutors, judges, and registries at the Serious Crimes Unit 
in East Timor, the International Criminal Court, the Special 
Court for Sierra Leone, and the Extraordinary Chambers in the 
Courts of Cambodia. She has lectured in over 65 countries and 
published extensively in international criminal law, 
international humanitarian law, and gender justice, including 
her book ``War Crimes Against Women: Prosecution in 
International War Crimes Tribunals,'' and her three-volume 
treatise ``Women and International Human Rights Law.'' Since 
1995, Dr. Askin has taught and served as a Visiting Scholar at 
Notre Dame University, Washington College of Law, Harvard, and 
Yale.
    Thank you for joining us today. Please proceed.

   STATEMENT OF KELLY DAWN ASKIN, SENIOR LEGAL OFFICER, OPEN 
         SOCIETY JUSTICE INITIATIVE, NEW YORK, NEW YORK

    Ms. Askin. Chairman Durbin, Ranking Member Coburn, and 
distinguished members of this Subcommittee, I commend you for 
taking up the issue of wartime sexual violence, a terrible 
crime that is destroying the lives of millions of individual 
victims, their families, and communities in dozens of conflicts 
worldwide. I am so grateful that this ground-breaking 
Subcommittee--which in less than a year has provided 
extraordinary leadership on ensuring accountability for 
genocide, gross human rights abuses, conscripting child 
soldiers, and trafficking in women--is turning its sights to 
this horrific scourge.
    In 2004, I was in Chad in collaboration with the Bush 
administration's Darfur Atrocities Documentation Project where 
I traveled to the border of Darfur and spoke with victims and 
witnesses of rape and other sex crimes committed by the 
Government of Sudan and their Janjaweed puppets. Over the past 
few years, I have spent quite a bit of time in places like 
Rwanda, Uganda, Sierra Leone, and Democratic Republic of Congo 
where sexual violence has been committed in epidemic 
proportions.
    But let me be very clear: Wartime sexual violence is not 
just an African problem. It is a problem of enormous magnitude 
worldwide. I have worked with each of the international courts 
set up in the past 15 years and have traveled to dozens of 
conflict and post-conflict zones. During the course of my work 
on international crimes and gender justice, I have had the 
opportunity to speak with wartime sex crime survivors from 
Africa, Europe, Asia, Latin America, and the Middle East. 
Whether survivors from East Timor, Bosnia, Burma, Iraq, 
Argentina, or Darfur, the stories victims of sex crimes tell 
are strikingly similar. They were assaulted by men with 
weapons, often attacking in gangs, and in public.
    Historically, rape has been a war crime for centuries, 
although only rarely and selectively enforced. The past decade 
has witnessed unprecedented advances in prosecuting atrocity 
crimes. Contemporary international justice initiatives first 
began after reports of crimes committed during the 1990s 
conflicts in the former Yugoslavia galvanized the world, 
evoking reminders after the Holocaust that never again would 
such acts be allowed to happen, much less go unpunished. 
Ultimately, and with strong U.S. leadership, the U.N. Security 
Council established the International Criminal Tribunal for the 
Former Yugoslavia in 1993. The statute of this tribunal 
authorizes prosecution of genocide, crimes against humanity, 
and war crimes. And less than a year after the Security Council 
established the Yugoslav Tribunal, a genocide raged through 
Rwanda, with as many as 700,000 people massacred and hundreds 
of thousands of others maimed, raped, and otherwise brutalized 
during 100 days. So by the end of 1994, the Security Council 
also set up the International Criminal Tribunal for Rwanda.
    The Yugoslavia and Rwanda Tribunals have been unparalleled 
in their treatment of gender-related crimes, and this has had 
and will continue to have a major impact on other international 
or hybrid courts set up to prosecute war crimes in places like 
Sierra Leone, East Timor, the Balkans, and Cambodia.
    The United States has been a driving force in establishing 
and supporting most of these courts, as well as in promoting 
international justice more generally. In these tribunals, rape 
has been successfully prosecuted as a war crime, a crime 
against humanity, and an instrument of genocide. The tribunals 
have formally recognized not only rape but sexual slavery, 
forced pregnancy, forced sterilization, and forced nudity. 
Additionally, various forms of sexual violence committed 
against both men and women have been prosecuted as torture, 
persecution, and enslavement. These courts, principally through 
the use of crimes against humanity charges, have forcefully and 
unequivocally recognized that sex crimes have been used 
strategically as instruments of war, terror, and destruction, 
means of inflicting harm far beyond the individual victim.
    While the cases in the Yugoslav and Rwanda Tribunals embody 
tremendous progress in international criminal law, the cases 
tried represent a minuscule percentage of the sex crimes 
actually committed and, thus, for tens of thousands, perhaps 
hundreds of thousands of other cases, there will likely be 
wholesale impunity.
    Criminal prosecution of sex crimes is absolutely critical 
in order to punish the crimes, highlight its gravity, and 
enforce the rule of law. Rape is common in peacetime, and its 
frequency and savagery multiply during wartime. In virtually 
all conflicts, there is opportunistic rape, rape committed 
because the atmosphere of violence, the prevalence of weapons, 
and the breakdown of law and order present the opportunity. But 
over the last few decades, the trend is toward calculated and 
concerted efforts to harm a broader group through the use of 
sexual violence inflicted on the women and girls, the bearers 
of future generations. Rarely are these crimes prosecuted, 
particularly when the judicial system is in shambles, and the 
government leaders are the architects of the violence. In 
addition to prosecution, it is critical to address gender 
stereotypes that serve to perpetuate sexual violence.
    The shame and stigma wrongfully attached to victims of sex 
crimes must be shifted to the perpetrators of these crimes. In 
addition to the physical, psychological, and sexual harm 
inflicted by rape, sex crime survivors often face severe 
ostracism, HIV/AIDS or other sexually transmitted disease, and 
serious reproductive harms. If the shame is placed on the 
perpetrators for their despicable acts instead of on the 
victims, I am confident that we would see a reduction in the 
occurrence of sex crimes.
    Prosecuting wartime sexual violence and denying impunity to 
the perpetrators of horrific crimes are bipartisan issues. The 
United States can close gaps in its criminal codes which might 
allow perpetrators to escape justice. The United States should 
be able to prosecute any person found in this country who is 
responsible as an individual or a superior for war crimes, 
crimes against humanity, or genocide, including for sex crimes.
    Let me just mention two core recommendations to the 
Subcommittee which can improve U.S. law and practices on 
redressing wartime rape.
    First, enact a Sexual Violence in Wartime Accountability 
Act that criminalizes wartime sexual violence, provides for 
prosecution of anyone who commits sexual violence with a nexus 
to an armed conflict, whether in the United States or abroad, 
and provides for penalties commensurate with the gravity of 
these offenses. The law should also designate persons who 
commit wartime sexual violence as inadmissible aliens, allow 
the deportation of persons who commit wartime sexual violence, 
and deny impunity and safe haven to such persons.
    Second, the Subcommittee should consider enacting 
legislation making crimes against humanity, including various 
forms of sexual violence, crimes under U.S. law.
    The bottom line: The U.S. should return to the forefront in 
promulgating legislation on wartime sexual violence. It is 
critical to modernize our criminal codes to provide more 
protections to the victims of sex crimes and ensure that 
perpetrators neither escape justice nor find safe haven in this 
country. The United States should have the ability to prosecute 
a range of sex crimes when committed with a nexus to an armed 
conflict as a war crime, a crime against humanity, or as 
genocide. Limiting prosecutions solely to war crimes would fail 
to recognize the widespread and systematic nature of many sex 
crimes, as well as their tactical commission as a means of 
terrorizing, demoralizing, and ultimately destroying the 
targeted group.
    I would be pleased to answer any questions the Subcommittee 
may have.
    [The prepared statement of Ms. Askin appears as a 
submission for the record.]
    Chairman Durbin. Thank you very much, Dr. Askin.
    Our next witness is Dr. Denis Mukwege, who is the Director 
of the Panzi Hospital in Bukavu in the Democratic Republic of 
Congo. He is one of the world's leading experts on treating 
survivals of sexual violence in conflict.
    Dr. Mukwege has a remarkable story. He worked in a hospital 
in Lemera in South Kivu Province where he established an 
obstetrics and gynecology program, something that he has in 
common with my colleague, Senator Coburn, who is also a 
specialist in obstetrics and gynecology. The destruction of 
this hospital in 1996 during the conflict forced him to move to 
Bukavu. In Bukavu, the absence of a health facility to assist 
women during their deliveries prompted Dr. Mukwege to spearhead 
an effort to build a maternity ward with an operating room at 
Panzi.
    The growing number of women seeking assistance for brutal, 
conflict-related rape led him to create a special program for 
the treatment of survivors of sexual violence. An average of 
ten women seek treatment for sexual violence injuries every day 
at the Panzi Hospital, and an estimated 30 percent of these 
cases involve injuries so serious that the patient must undergo 
major surgery.
    Dr. Mukwege studied medicine in Burundi and specialized in 
obstetrics and gynecology at Angers University Hospital in 
France. I want to thank him for being here today, and I will 
tell you, as I mentioned earlier, having visited one of these 
hospitals and understanding what you face every single day, you 
are truly a hero for what you do for some of the poorest people 
on Earth. And it is an honor to have you before our Committee.
    Dr. Mukwege will testify in French. His assistant, Jean 
Moorhead, sitting to his left, will simultaneously translate 
into English. I will now attempt to say three or four words in 
French, after 6 years of time in classrooms: ``Bienvenue. 
Commencer, s'il vous plait.''
    [Laughter.]

   STATEMENT OF DENIS MUKWEGE, M.D., DIRECTOR, PANZI GENERAL 
 REFERRAL HOSPITAL, BUKAVU, SOUTH KIVU, DEMOCRATIC REPUBLIC OF 
        CONGO, ACCOMPANIED BY JEAN MOORHEAD, INTERPRETER

    Dr. Mukwege. Chairman Durbin, Ranking Member Coburn, and 
members of the Subcommittee, it is a great honor for me to be 
invited to testify before this tribune concerning the acts of 
violence against the civilian population, and especially the 
women, in the eastern Democratic Republic of Congo.
    I thank you for accepting to take your precious time to 
listen to my testimony about the sexual terrorism that the 
women in the Eastern Congo have lived with for almost 10 years, 
and this is known by the national and international community, 
without anyone making a serious decision to end this shameful 
crime against humanity in the 21st century.
    The word ``rape'' or ``sexual violence'' cannot fully 
translate the horror that hundreds of thousands of women are 
living in this part of the world. My testimony refers to my 
daily contacts with these victims in the hospital, and the 
thousands of women whom we treat.
    It is important to point out that this sexual terrorism is 
done in a methodical manner and according to the method of 
terror each armed group uses against their victims. Generally, 
the victims are raped by several men at a time, one after 
another; in public, in front of parents, husbands, children, or 
neighbors; rape is followed by mutilations or other corporal 
torture; sexual slavery often goes on for months; and there are 
all sorts of psychological torture.
    On arriving at the hospital, women victims complain of 
physical, psychological, and social problems, and they show 
sexually transmissible infections, especially chlamydia, which 
is a source of chronic abdominal pain and results in sterility; 
HIV infection, accompanied by opportunistic diseases; genital 
lesions ranging from simple wounds to complicated genital 
lesions stopping urinary or digestive function such as 
urogenital and recto-genital fistulas; fibrosis of the vagina, 
et cetera.
    It goes without saying that this woman, who has become 
incapable of fully using her capacities as a woman because all 
possibility of motherhood is taken away from her, and in 
addition is weakened by AIDS, hopes in her pain for an easy 
death. And we are all witnesses that this is voluntary murder.
    The woman is deeply humiliated, and this brings on 
behavioral difficulties which can result in suicide, 
disinterest in living, not caring for anything, and 
aggressiveness. These women are often rejected by their own 
family and their husbands. This exclusion and isolation can 
worsen the behavioral problems which were mentioned before.
    This results in a breakup of the family, and often the 
woman or girl victim is excluded and condemned instead of the 
rapist. The result is the destruction of potential mothers and 
the spread of HIV on a large scale, which brings about the 
disappearance of the population without the capacity of the 
population renewing itself.
    The analysis of this phenomenon shows that the rapists are 
not doing this to satisfy some kind of sexual desire, but 
simply want to destroy the woman. They want to destroy life.
    This sadistic desire to destroy pertains not only to the 
woman, but to her whole family and the whole community. This 
situation is so much more serious because it does not concern 
10,000 women but, according to estimates, several hundred 
thousand women.
    ``My name is Madame X, and I am 47 years old. On the night 
of August 24, 2007, while we were sleeping, four intruders 
speaking another language, and probably coming from Kahuzi 
Biega Park, broke down the door of the house. They tied up my 
husband, stole everything in the house, and demanded money. Two 
of them raped me, and the two others raped my 13-year-old 
daughter and took her into the forest. Up to now, I do not know 
if she is still living. When they first raped me, the second 
took a piece of wood wrapped in a piece of cloth and began to 
clean my private parts. In putting the piece of wood deeply 
into me, he wounded my bladder and my private parts. The next 
morning, the village people who had not run away took me to the 
dispensary. Two days later, a medical team from Panzi found me 
at the dispensary and took me to the hospital. I was treated 
and am now better, but I am afraid to return home because the 
intruders are still in the forest.''
    This is an example of what we are living with every day. 
Thus, I am asking the national Congolese community to invest 
thoroughly in putting an end to this crisis, similar to no 
other, that is going on in eastern Congo by using political, 
judicial, and whatever other means to isolate the authors of 
these crimes and stop them from committing any more crimes.
    I am also asking the international community to make 
rational use of MONUC, the United Nations forces in the Congo, 
to protect the civilian population and especially the women, 
which is part of their mandate, and yet this situation 
continues to this day.
    I am also asking the American Government to use its 
influence on the governments of the countries of the Great 
Lakes Region to stop this practice of rape being used as a 
weapon of war and to help stop the leaders of these horrible 
crimes, who are known to everyone; where they are staying is no 
secret, and their acts are known to everyone.
    Members of the Subcommittee, the eyes of these women are 
now riveted on you. Their eyes will not leave you until you 
have actively taken steps to alleviate their suffering.
    Thank you.
    [The prepared statement of Dr. Mukwege appears as a 
submission for the record.]
    Chairman Durbin. Dr. Mukwege, thank you very much for that 
moving testimony. When I visited DOCS Hospital in Goma, and 
asked about the doctors who were there, they told me that there 
was one surgeon for every 1 million people. And I asked them 
what these doctors were paid, and I was told that they work for 
the government and that they were paid $600 a month, when they 
were paid.
    Can you tell me if the circumstances at your hospital are 
similar?
    Dr. Mukwege. The situation of doctors in the Congo today is 
catastrophical. I have worked for almost 25 years in this area, 
in this region, as the only gynecologist. It is practically 
impossible to find a gynecologist who will come and work under 
these conditions. They prefer to go to South Africa or other 
countries where they are better paid and treated. And to get 
around this problem, I have trained some of my colleagues, 
doctors, in gynecological and obstetrical interventions to be 
able to help me to work in the hospital.
    Chairman Durbin. May I ask you this? You have spoken to us 
graphically about the physical damage being done to the 
victims. Would you speak for a moment about the psychological 
element? What I found in many of these women in Goma was 
rejection by their families, by their tribes, by all of their 
friends. They were alone after they had been victimized. You 
have given us examples of women who have been victimized. Are 
these women welcomed back to some part of their background, 
their family, their community, their village? What is their 
future after the surgery?
    Dr. Mukwege. After surgery, we come up against two types of 
problems. The first group are women who are cured physically 
and who do not have AIDS. It is easier to reconciliate this 
group of women with their families, and, with the help of 
churches and NGO's, we make many efforts to reconcile these 
women with their families. There has been a favorable change 
today in the way that people look at the women, and we have 
been working with the churches not to condemn these women. And 
this has led to an acceptance on the part of the community and 
the families of these women.
    But even if the woman does not have AIDS or she is not very 
sick, when the rapist gives a child to the woman he rapes, it 
is hard for the family to accept the child, and for the 
community also. And we have been trying to work with the family 
to accept the child, because when the father of the child has 
killed the whole family, it is absolutely difficult for the 
family or the community to accept the child.
    We have a problem because with very young girls, many of 
them are incurable, 13, 14 years old. The bladder was 
destroyed. The rectum was destroyed. The vagina was destroyed. 
And in that state it is hard to cure them. So they cannot go 
home because when they go home, they do not smell good because 
they are incontinent, and they always come back to the 
hospital. And it is a problem because we keep these young 
women.
    They never want to leave the hospital. They always find a 
reason to stay at the hospital, and it is hard for the hospital 
because the hospital cannot keep all these women. And that is a 
big problem for us. They always find a reason to come back and 
stay there.
    Chairman Durbin. If I could interrupt you for a moment, I 
want to give Senator Coburn a chance to ask questions. I 
misstated earlier. He is a family practice physician with a 
specialty in obstetrics, so I want to make sure that is clear 
for the record.
    Senator Coburn? And then we will continue with questions to 
the rest of the panel.
    Senator Coburn. Well, first of all, let me thank each of 
you for your testimony. I was intrigued by Dr. Askin's 
recommendations, and I just wondered what Ms. Wachter and Ms. 
Jackson thought. I do not know if you have read her testimony. 
She gave us some very specific things that she thought we could 
do. Do you have any comments about what those are? She listed, 
I believe, five. Is that not correct, Dr. Askin? Five specific 
areas that we can do in terms of domestic law that will have an 
impact on international law. Could either of you comment on 
that? Are you aware of what her recommendations were? Ms. 
Jackson?
    Ms. Jackson. I have not read her recommendations, so I 
cannot really comment, and not being sort of an expert in these 
sort of policy type of areas, I will let Karin take this 
question.
    Ms. Wachter. Unfortunately, I have just received the 
testimony myself, so I was not able to read through the 
recommendations. What I would say is that what Dr. Askin is 
saying in terms of impunity and having to hold perpetrators 
accountable is absolutely important. From the standpoint of an 
organization that gets on the ground and provides services to 
the survivors of these kinds of crime, we certainly want to 
promote the idea that while we are looking at issues of 
impunity, we look at issues of continued support and services 
on the ground, and also help to change the laws to make it more 
amenable within the countries themselves to deal with these 
issues.
    The International Violence Against Women Act that has been 
recently introduced is an exciting opportunity to make sure 
that this can happen.
    Senator Coburn. OK. Dr. Mukwege, you have described very 
literally the complications that come from this. Chlamydia is a 
silent killer in this country as far as reproductive health, 
but it is not so silent where you are treating. And I would 
dare say probably your experience on reconstructive vaginal, 
rectal, and urethral surgery is greater than most in this 
country. Are there areas where we could as a country be of help 
in attaining further expertise for those women who have failed 
repairs? Is there something that we can do to help make them 
whole through either our research or our training where we 
could enable you to be more effective?
    Dr. Mukwege. This is quite an opportunity. We really need 
someone who can do this kind of surgery or experts who could do 
this kind of surgery, because it is not the usual kind of 
surgery that people do. We need assistance in urology and 
gynecology surgery. There is no urologist in Goma or Bukavu, 
and if a mission of gynecologists and urologists, American 
gynecologists and urologists, could come to help the inoperable 
cases, because there are other techniques of derivation of 
tubes to be able to help them. That would be very helpful for 
us.
    We do have a new group, a new contact with Harvard 
University where they wanted to send experts, but up to now the 
experts they have sent, it is more on a research basis, and we 
have not had anyone who does this kind of surgery to come.
    Senator Coburn. Just for the audience's sake, my own 
personal experience is that if we have a recto-vaginal fistula 
or urethro-vaginal fistula, we attempt to repair it once. But 
in the central part of the United States, what we always do is 
refer to one center in St. Louis because there is such a 
limited exposure.
    My worry is that we do not have this expert, that Dr. 
Mukwege actually has more expertise than we have in this 
country, and I will try the question one more time.
    Is there a way where we could create a specially trained 
group of physicians that would help you or at least make 
physicians available to you that would help you?
    Dr. Mukwege. At Panzi we have trained eight generalist 
doctors in these kinds of operations. But we still need help 
because--and if the American Government could help us create a 
training center at Panzi for doctors, we could get some experts 
from the United States, the urologists, that we could also work 
with, because we have certain knowledge about this, and we 
could work together and we could train other doctors.
    Senator Coburn. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Durbin. Thank you, Senator Coburn, and I 
appreciate your being here at this hearing.
    I will just add a comment. One of the things I noted was 
that as soon as these doctors are trained, many of them are 
subject to being poached by the United States, Germany, France, 
South Africa, where they can make dramatically more money in 
dramatically better situations. And that is one of the dilemmas 
here where we are complicit in the problem. We are attracting 
these doctors from Africa, and nurses, to come to the United 
States to serve our needs when they are desperately needed in 
many parts of the world, like Africa. I am trying to address 
this. It is a terrible dilemma for an American Congressman, but 
one that we clearly have to face.
    Dr. Askin, I want to followup on what Dr. Mukwege has said. 
Speaking as a lawyer who has not been a prosecutor in criminal 
cases, it is my understanding that to prove a case of rape, you 
need the testimony usually of a victim. In this case, we are 
dealing with children and victims who are clearly not 
consensual in any way, shape, or form in this. So as you advise 
these judges and others, prosecutors and others, tell me how 
they make the case when we are dealing with people who are too 
ashamed to speak of the atrocities that have been visited on 
them. And also, just as a footnote to this, after leaving 
Congo, I went to Kigali in Rwanda and stayed at the Hotel 
Rwanda and walked around to some of these scenes that I had 
been told about in that terrible atrocity and genocide in 
Rwanda. Aside from the museum, which highlights what happened 
during that genocide, I found Rwandans, by and large, not 
wanting to talk about it. They wanted to put it behind them.
    So tell me about that aspect as well, that by the time a 
tribunal meets, a war many times has passed, and people do not 
want to reflect and dwell on the pain of the past. Tell me how 
cases can be made under those circumstances.
    Ms. Askin. Thank you, Senator Durbin. That is an excellent 
question.
    Actually, because so many of these crimes are committed in 
public, often it is not necessarily just the victim who is 
testifying. It is witnesses. The tribunals have found it very 
effective to ask virtually every person that they interview 
about sexual violence.
    There is one case, for instance, at the Rwanda Tribunal 
where rape as a crime against humanity has been charged, and 
yet they have never called a single victim. They asked 
everybody else: Peacekeepers, did you know about wartime rape? 
Did you see any? Did you see the evidence? And many times they 
will report, because it is so notorious, that everybody can 
talk about, yes, it was widespread, it was systematic; there 
were these patterns of conduct in these particular places.
    And doctors like Dr. Mukwege, I was with him in Bukavu in 
January, and he has this phenomenal documentation of patterns 
of conduct of different groups. You know, some of the ones that 
just jumped out at me, you know, one particular group, when 
they attack women, they cutoff the husband's head and leave it 
on the chest of the woman while they are raping her, and she 
eventually goes mad. Another group has, you know, attacks with 
foreign objects.
    I do disagree to some extent with the claim I think that is 
quite frequent that people do not want to talk about this. Now, 
I do think that they want to get on with their life, and 10 
years later, you know, they may have married, maybe their 
husband does not know about what happened to them. But I have 
found in much of my work that people have been extremely 
willing to talk about the sex crimes committed against them, 
testifying, doing--you know, when many of them come from 
justice systems where there are not necessarily fair trials, 
when everybody in the community will know if they leave for 
weeks at a time to go away. I think there certainly is the 
shame and stigma, but I do think that people are willing to 
talk about it. And I have spoken to several women who have 
found the experience extremely empowering to be able to go into 
court and tell their story.
    But, you know, there is no question that it is a difficult 
crime, but I think the public nature of so much of it has made 
the testimony somewhat easier.
    Chairman Durbin. Ms. Wachter, Dr. Mukwege has said in his 
testimony--I am paraphrasing here--that mass rape as we are 
speaking of here is less--and some of these are my words, but 
paraphrasing his--less an issue of sexual desire and more a 
crime of violence to destroy the woman, destroy the family, 
destroy the tribe as part of, you know, this kind of tactic of 
war.
    So is this something that in your experience becomes a 
calculated and announced policy? Or is it something where it 
drifts to this level of violence and then continues unabated 
without any attempt at restraint? How calculated, how specific 
is this as a tactic of war?
    Ms. Wachter. I think that is an excellent question, and it 
is one that we oftentimes ask ourselves. I think that there are 
clear examples, such as in Bosnia, where it was a clearly 
defined policy. In DRC, my sense of it is that it has been so 
effective in controlling, in demeaning, in demoralizing the 
population caught between the different rebel groups and the 
military that it is more a spreading practice, as they see it 
as being very effective in carrying out their so-called 
military aims. And also because the soldiers such as in Congo 
are underpaid, they are not taken care of, they are actually 
using this as a tactic to get their food from the population. 
So it is oftentimes hard for us to say.
    Chairman Durbin. One of the comments made by Dr. Mukwege 
was about the role of the United Nations forces in Congo, for 
example, and I was with those forces, visiting refugee camps, 
and he called for more vigilance on their part. So speaking of 
the refugee camps--and I imagine you have seen them or have 
friends who have visited there--are the United Nations forces 
in those instances, to your mind, doing the job, making certain 
that there is safety and security at least within the refugee 
camps?
    Ms. Wachter. Also an excellent question. I think that 
oftentimes the U.N. forces have their hands tied a bit, but 
that they are not, in fact, able to do the job as it was 
envisioned, and certainly not up to the expectations of the 
community itself. Certainly in the Congo example, the Congolese 
population is looking to MONUC to be providing them that 
protection, and they are unable to.
    Chairman Durbin. There have been mentions here several 
times--it has been mentioned several times--of peacekeepers 
being involved in this terrible crime. Is there any evidence 
that they are being prosecuted? Ms. Jackson?
    Ms. Jackson. Yes, often they are sent back to the host 
country, so the Uruguayans, the South Africans, the 
Bangladeshis will be sent back with a cut in pay, but they will 
face no reprisals at home. I had a good friend who was actually 
in charge of the MONUC investigation and prosecution, and they 
could bring no charges against any of the dozens and dozens of 
peacekeepers who were setting up brothels and exchanging wheat 
for sexual favors. So, no, the host countries do not--there is 
no pressure on them to prosecute.
    Chairman Durbin. Dr. Mukwege also spoke about the women 
after surgery, and it appears from your documentary that you 
have interviewed many of these women who have been through this 
experience--and some, I am sure, have received some medical 
attention--being lost souls with no place to turn. Tell me what 
your experience has been, Ms. Jackson, as you traveled around 
and spoke in some of these different regions, about what 
happens to these women ultimately.
    Ms. Jackson. Well, I think it needs to be emphasized that 
the women who make it to Panzi Hospital are a minority. The 
ones who get there often walk for months through the forest. 
This is a country with no infrastructure, with no roads. So the 
women who get there, because they have, you know, hitched a 
ride on a truck or family members have helped them limp through 
the woods, are the minority. And the majority of women never 
make it to any sort of medical facility.
    They are forgotten women in a forgotten war, and they are 
very much--they have become sort of the walking dead. They are 
ostracized within the community, as he mentions. They are 
incontinent. They are, you know, constantly soiling themselves. 
Yet the women will come together, and I met many groups of 
women, all of whom have been raped, all of whom have been 
rejected by their families, all of whom had children that they 
could no longer care for, who often will congregate, for 
instance, in churches, in parish halls. And that becomes their 
new community, because they are forced to start over again. 
They are forced to start over again. They have nothing left.
    And, of course, their children become picked off by the 
militias, and they are conscripted as child soldiers. They end 
up working in the mines for slave wages. So you can see how the 
family begins to break down as soon as the women is victimized.
    Chairman Durbin. Have you run into any coordinated efforts 
to help them, like micro credit programs or anything of that 
nature?
    Ms. Jackson. Well, there are many, many NGO's on the ground 
in Eastern Congo, and the IRC has wonderful programs, Women for 
Women International.
    The micro loan thing is--you know, it can work, but this is 
a country with no banking system. And when you go into a 
village in, you know, a 4 x 4 with an NGO logo on the side and 
go into a home, immediately that home is--the presumption is 
that you are leaving money and goods behind, and often people 
are robbed after you come into a village. I mean, I learned to 
go in, you know, very much under the radar.
    So, you know, the country is in such desperate straits that 
aid needs to come from so many areas, you know, for women's 
economic empowerment, for their physical and reproductive 
health, you know, to address the impunity issue, to deal with 
their children, a generation that has been raised in this 
horrible conflict.
    So micro credit is a definite possibility, but how one 
enacts that is difficult.
    Chairman Durbin. We have spoken of many countries where 
this use of rape as a tactic of war has been prevalent. We 
focused on the Congo, Democratic Republic of Congo, and not to 
take anything away from the tragedy and genocide of Darfur, I 
hope that today's hearing will encourage people to look more 
closely at the sad, tragic situation in Democratic Republic of 
Congo.
    I would like to go to really the heart of the hearing and 
back to Dr. Askin. It is our hope that we can make it clear 
that the United States under its law is not going to look the 
other way when someone who is guilty of these crimes comes to 
our country, even if the victims have not been Americans, even 
if the crime did not occur on American soil, that we will not 
give them the comfort of safety and security in our Nation. 
They would face prosecution.
    I do not know if this has any great value on the ground in 
these countries that we are speaking of. It certainly has great 
value to me from a moral position that we are trying to say to 
the world this is what everyone should do so that there is no 
safe haven. And I would ask, Dr. Askin, if you could comment on 
that aspect of the hearing.
    Ms. Askin. Absolutely. I mean, I think that we have seen 
for the last, you know, 20 or 30 years that there have been 
perpetrators of horrible atrocities who have ended up coming to 
the United States, and there has not been, until more recently, 
laws on the book to prosecute them if they committed the crimes 
in Argentina or Chile or outside the United States. And I think 
that sends a signal that this is a safe haven, that, you know, 
perpetrators can come here because we do not have laws that can 
prosecute them.
    Often, we do not extradite--or sometimes we do, but because 
sending them back, the country is unable or unwilling to 
prosecute them themselves. So there is nothing to do, you know, 
under the Alien Tort Claims Act or other civil remedies, but 
there need to be legal remedies, particularly for when crimes 
are committed outside the United States and the perpetrator 
comes to the U.S. And I do think it sends a signal not only to 
the victims but to other countries that you take these crimes 
seriously.
    It is frustrating to see over the years how many generals 
or superiors who have committed crimes in other jurisdictions 
have come here and been subject to very little criminal 
penalty.
    Chairman Durbin. What of the argument some make that we 
should just deport these people back to the country where this 
occurred, which is where they should be prosecuted, since it is 
likely there will be more evidence? What do you make of that 
argument?
    Ms. Askin. Most of the time the countries in question are 
ones that cannot prosecute or will not prosecute, and so they 
will essentially go back with impunity. Sometimes they may be 
subjected to torture. Most of the countries do not have the due 
process standards that this country has.
    You know, I do think that there is a duty to prosecute or 
extradite to a country where they will get a fair and effective 
prosecution.
    Chairman Durbin. Let me ask you, Dr. Askin, as my last 
question: Can you point to a country which has handled this 
well, where you believe that they have recognized the problem 
and have done the right thing in terms of prosecuting those who 
have committed these crimes against humanity?
    Ms. Askin. I think you are starting to see that 
increasingly in Spain and Belgium where they are increasingly 
prosecuting crimes committed outside their jurisdiction, for 
war crimes, crimes against humanity, and genocide. They have 
laws on their books that enable them to do that, and I think 
there has been even some situations where, you know, somebody 
has gone to their country for medical reasons, and they have 
arrested and are prosecuting them.
    Chairman Durbin. Thank you.
    Dr. Mukwege, I am going to ask you a question which you may 
not be prepared to answer. I hope you are. But if those who are 
following this hearing on C-SPAN want to help you and your 
hospital in its efforts, is there a charity, an American-based 
charity, for example, that they could support that might be 
able to help you with your important work?
    Dr. Mukwege. Thank you very much for asking me that 
question. I want to say thank you because we have already 
benefited from a program. We are benefiting from an outreach 
program--but it is not on a very large scale--to go to 
different villages and get women who are not able to come to 
the clinic. We go to see the women in the villages. We talk 
about this, too, and the problems of rape, and women come 
forward and are examined by the doctors. Or we take them to the 
hospital to get help. We have a limited amount of help with 
that.
    The additional aid we are asking today would be the 
training that we talked about, if we could maybe build a 
training center for training doctors in gynecology and 
fistulae, and we could cooperate with the American doctors with 
what we know and what they know. And we would like those two 
programs--the outreach program going to the villages and 
getting the women, plus the training center--those are the two 
kinds of programs that we would like to continue and develop.
    Chairman Durbin. Thank you. I will try to work with you to 
achieve those goals and find the appropriate agency or NGO to 
help us reach them.
    I want to place in the record at this point the written 
statements from the following organizations and individuals: 
Amnesty International, CARE, Christian Peacemaker Teams, Human 
Rights Watch, International Center for Transitional Justice, 
Physicians for Human Rights, Women Thrive Worldwide, Women's 
Commission for Refugee Women and Children, Eve Ensler, Colin 
Thomas-Jensen of ENOUGH, and Daniel Rothenberg of DePaul Law 
School's International Human Rights Law Institute. Without 
objection, these will be included in the record.
    The record will remain open for a week for additional 
materials from interested individuals or organizations. Written 
questions for the witnesses must also be submitted by the close 
of business one week from today, which we will ask the 
witnesses to respond to, if they can, in a timely fashion.
    As we close this hearing, I want to urge everyone listening 
to contemplate the challenge that Dr. Mukwege posed to all of 
us today when he said that the eyes of the women and girls who 
have suffered unimaginable wartime violence in his Democratic 
Republic of Congo and countries around the globe are fixed on 
all of us. We have a moral obligation to take action to help 
these brave survivors and to stop the use of rape as a weapon 
of war.
    This hearing will stand adjourned.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T5210.001
    
    [GRAPHIC] [TIFF OMITTED] T5210.002
    
    [GRAPHIC] [TIFF OMITTED] T5210.003
    
    [GRAPHIC] [TIFF OMITTED] T5210.004
    
    [GRAPHIC] [TIFF OMITTED] T5210.005
    
    [GRAPHIC] [TIFF OMITTED] T5210.006
    
    [GRAPHIC] [TIFF OMITTED] T5210.007
    
    [GRAPHIC] [TIFF OMITTED] T5210.008
    
    [GRAPHIC] [TIFF OMITTED] T5210.009
    
    [GRAPHIC] [TIFF OMITTED] T5210.010
    
    [GRAPHIC] [TIFF OMITTED] T5210.011
    
    [GRAPHIC] [TIFF OMITTED] T5210.012
    
    [GRAPHIC] [TIFF OMITTED] T5210.013
    
    [GRAPHIC] [TIFF OMITTED] T5210.014
    
    [GRAPHIC] [TIFF OMITTED] T5210.015
    
    [GRAPHIC] [TIFF OMITTED] T5210.016
    
    [GRAPHIC] [TIFF OMITTED] T5210.017
    
    [GRAPHIC] [TIFF OMITTED] T5210.018
    
    [GRAPHIC] [TIFF OMITTED] T5210.019
    
    [GRAPHIC] [TIFF OMITTED] T5210.020
    
    [GRAPHIC] [TIFF OMITTED] T5210.021
    
    [GRAPHIC] [TIFF OMITTED] T5210.022
    
    [GRAPHIC] [TIFF OMITTED] T5210.023
    
    [GRAPHIC] [TIFF OMITTED] T5210.024
    
    [GRAPHIC] [TIFF OMITTED] T5210.025
    
    [GRAPHIC] [TIFF OMITTED] T5210.026
    
    [GRAPHIC] [TIFF OMITTED] T5210.027
    
    [GRAPHIC] [TIFF OMITTED] T5210.028
    
    [GRAPHIC] [TIFF OMITTED] T5210.029
    
    [GRAPHIC] [TIFF OMITTED] T5210.030
    
    [GRAPHIC] [TIFF OMITTED] T5210.031
    
    [GRAPHIC] [TIFF OMITTED] T5210.032
    
    [GRAPHIC] [TIFF OMITTED] T5210.033
    
    [GRAPHIC] [TIFF OMITTED] T5210.034
    
    [GRAPHIC] [TIFF OMITTED] T5210.035
    
    [GRAPHIC] [TIFF OMITTED] T5210.036
    
    [GRAPHIC] [TIFF OMITTED] T5210.037
    
    [GRAPHIC] [TIFF OMITTED] T5210.038
    
    [GRAPHIC] [TIFF OMITTED] T5210.039
    
    [GRAPHIC] [TIFF OMITTED] T5210.040
    
    [GRAPHIC] [TIFF OMITTED] T5210.041
    
    [GRAPHIC] [TIFF OMITTED] T5210.042
    
    [GRAPHIC] [TIFF OMITTED] T5210.043
    
    [GRAPHIC] [TIFF OMITTED] T5210.044
    
    [GRAPHIC] [TIFF OMITTED] T5210.045
    
    [GRAPHIC] [TIFF OMITTED] T5210.046
    
    [GRAPHIC] [TIFF OMITTED] T5210.047
    
    [GRAPHIC] [TIFF OMITTED] T5210.048
    
    [GRAPHIC] [TIFF OMITTED] T5210.049
    
    [GRAPHIC] [TIFF OMITTED] T5210.050
    
    [GRAPHIC] [TIFF OMITTED] T5210.051
    
    [GRAPHIC] [TIFF OMITTED] T5210.052
    
    [GRAPHIC] [TIFF OMITTED] T5210.053
    
    [GRAPHIC] [TIFF OMITTED] T5210.054
    
    [GRAPHIC] [TIFF OMITTED] T5210.055
    
    [GRAPHIC] [TIFF OMITTED] T5210.056
    
    [GRAPHIC] [TIFF OMITTED] T5210.057
    
    [GRAPHIC] [TIFF OMITTED] T5210.058
    
    [GRAPHIC] [TIFF OMITTED] T5210.059
    
    [GRAPHIC] [TIFF OMITTED] T5210.060
    
    [GRAPHIC] [TIFF OMITTED] T5210.061
    
    [GRAPHIC] [TIFF OMITTED] T5210.062
    
    [GRAPHIC] [TIFF OMITTED] T5210.063
    
    [GRAPHIC] [TIFF OMITTED] T5210.064
    
    [GRAPHIC] [TIFF OMITTED] T5210.065
    
    [GRAPHIC] [TIFF OMITTED] T5210.066
    
    [GRAPHIC] [TIFF OMITTED] T5210.067
    
    [GRAPHIC] [TIFF OMITTED] T5210.068
    
    [GRAPHIC] [TIFF OMITTED] T5210.069
    
    [GRAPHIC] [TIFF OMITTED] T5210.070
    
    [GRAPHIC] [TIFF OMITTED] T5210.071
    
    [GRAPHIC] [TIFF OMITTED] T5210.072
    
    [GRAPHIC] [TIFF OMITTED] T5210.073
    
    [GRAPHIC] [TIFF OMITTED] T5210.074
    
    [GRAPHIC] [TIFF OMITTED] T5210.075
    
    [GRAPHIC] [TIFF OMITTED] T5210.076
    
    [GRAPHIC] [TIFF OMITTED] T5210.077
    
    [GRAPHIC] [TIFF OMITTED] T5210.078
    
    [GRAPHIC] [TIFF OMITTED] T5210.079
    
    [GRAPHIC] [TIFF OMITTED] T5210.080
    
    [GRAPHIC] [TIFF OMITTED] T5210.081
    
    [GRAPHIC] [TIFF OMITTED] T5210.082
    
    [GRAPHIC] [TIFF OMITTED] T5210.083
    
    [GRAPHIC] [TIFF OMITTED] T5210.084
    
    [GRAPHIC] [TIFF OMITTED] T5210.085
    
    [GRAPHIC] [TIFF OMITTED] T5210.086
    
    [GRAPHIC] [TIFF OMITTED] T5210.087
    
    [GRAPHIC] [TIFF OMITTED] T5210.088
    
    [GRAPHIC] [TIFF OMITTED] T5210.089
    
    [GRAPHIC] [TIFF OMITTED] T5210.090
    
    [GRAPHIC] [TIFF OMITTED] T5210.091
    
    [GRAPHIC] [TIFF OMITTED] T5210.092
    
    [GRAPHIC] [TIFF OMITTED] T5210.093
    
    [GRAPHIC] [TIFF OMITTED] T5210.094
    
    [GRAPHIC] [TIFF OMITTED] T5210.095
    
    [GRAPHIC] [TIFF OMITTED] T5210.096
    
    [GRAPHIC] [TIFF OMITTED] T5210.097
    
    [GRAPHIC] [TIFF OMITTED] T5210.098
    
    [GRAPHIC] [TIFF OMITTED] T5210.099
    
    [GRAPHIC] [TIFF OMITTED] T5210.100
    
    [GRAPHIC] [TIFF OMITTED] T5210.101
    
    [GRAPHIC] [TIFF OMITTED] T5210.102
    
    [GRAPHIC] [TIFF OMITTED] T5210.103
    
    [GRAPHIC] [TIFF OMITTED] T5210.104
    
    [GRAPHIC] [TIFF OMITTED] T5210.105
    
    [GRAPHIC] [TIFF OMITTED] T5210.106
    
    [GRAPHIC] [TIFF OMITTED] T5210.107
    
    [GRAPHIC] [TIFF OMITTED] T5210.108
    
    [GRAPHIC] [TIFF OMITTED] T5210.109
    
    [GRAPHIC] [TIFF OMITTED] T5210.110
    
    [GRAPHIC] [TIFF OMITTED] T5210.111
    
    [GRAPHIC] [TIFF OMITTED] T5210.112
    
    [GRAPHIC] [TIFF OMITTED] T5210.113
    
    [GRAPHIC] [TIFF OMITTED] T5210.114
    
    [GRAPHIC] [TIFF OMITTED] T5210.115
    
    [GRAPHIC] [TIFF OMITTED] T5210.116
    
    [GRAPHIC] [TIFF OMITTED] T5210.117
    
    [GRAPHIC] [TIFF OMITTED] T5210.118
    
    [GRAPHIC] [TIFF OMITTED] T5210.119
    
    [GRAPHIC] [TIFF OMITTED] T5210.120
    
    [GRAPHIC] [TIFF OMITTED] T5210.121
    
    [GRAPHIC] [TIFF OMITTED] T5210.122
    
    [GRAPHIC] [TIFF OMITTED] T5210.123
    
    [GRAPHIC] [TIFF OMITTED] T5210.124
    
    [GRAPHIC] [TIFF OMITTED] T5210.125
    
    [GRAPHIC] [TIFF OMITTED] T5210.126
    
    [GRAPHIC] [TIFF OMITTED] T5210.127
    
    [GRAPHIC] [TIFF OMITTED] T5210.128
    
    [GRAPHIC] [TIFF OMITTED] T5210.129
    
    [GRAPHIC] [TIFF OMITTED] T5210.130
    
    [GRAPHIC] [TIFF OMITTED] T5210.131
    
    [GRAPHIC] [TIFF OMITTED] T5210.132
    
    [GRAPHIC] [TIFF OMITTED] T5210.133
    
    [GRAPHIC] [TIFF OMITTED] T5210.134
    
    [GRAPHIC] [TIFF OMITTED] T5210.135
    
    [GRAPHIC] [TIFF OMITTED] T5210.136
    
                                 <all>

</pre></body></html>
